   April 25, 2003




Financial Management

Joint Operation Planning and
Execution System Funding
(D-2003-082)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

COTS                  Commercial Off-the-Shelf
DISA                  Defense Information Systems Agency
FMR                   Financial Management Regulation
GCCS                  Global Command and Control System
JOPES                 Joint Operation Planning and Execution System
O&M                   Operation and Maintenance
RDT&E                 Research, Development, Test, and Evaluation
          Office of the Inspector General of the Department of Defense
Report No. D-2003-082                                                      April 25, 2003
   (Project No. D2001LG-0101.03)

            Joint Operation Planning and Execution System Funding

                                   Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
information technology and accounting officials responsible for the classification,
recording, and reporting of maintenance and development costs associated with
information technology. Proper classification and recording is critical for accurate
financial statements and for reporting information technology costs to Congress.

Background. This is one in a series of reports the Inspector General of the Department
of Defense is issuing on the policies and procedures that govern the Global Command
and Control System. The military leadership uses the Global Command and Control
System in planning and executing worldwide joint military operations. The Joint
Operation Planning and Execution System (JOPES) is a Global Command and Control
System component system used to plan and execute joint deployments. JOPES Classic
supports the deployment process, and JOPES 21 is the proposed system designed to
improve support to the JOPES user community.

Results. The Defense Information Systems Agency inappropriately spent about
$28.4 million of Operation and Maintenance funds, rather than Research, Development,
Test, and Evaluation funds, to develop JOPES 21 from FY 1998 through FY 2002. As a
result, an Antideficiency Act violation may have occurred. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer needs to investigate whether the use of
Operation and Maintenance funds was an Antideficiency Act violation. (See the Finding
section of the report for the detailed recommendation.)

Management Actions. According to Defense Information Systems Agency management
officials, starting with the FY 2003 budget, Research, Development, Test, and Evaluation
funds are being applied to JOPES 21 contract actions. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Associate Deputy General Counsel
(Appropriations and Authorization Matters), Office of the Deputy General Counsel
(Fiscal) reviewed a discussion draft of this report and concluded that an Antideficiency
Act violation had not occurred.

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer stated that his office reviewed the facts presented
and obtained copies of budget justification material. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer determined that there was no violation of the
Antideficiency Act. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
review constituted a preliminary investigation; his actions were responsive to the intent
of the recommendation.
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               1

Finding
     Potential Funding Violation                                         3

Appendixes
     A. Scope and Methodology                                            9
     B. Prior Coverage                                                  11
     C. Report Distribution                                             12

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   15
Background
    Global Command and Control System. The Global Command and Control
    System (GCCS) is the DoD joint command and control system used to provide
    accurate, complete, and timely information for the operational chain of command.
    GCCS incorporates systems that provide situational awareness, support for
    intelligence, force planning, readiness assessment, and deployment applications
    that battlefield commanders require to effectively plan and execute joint military
    operations.

    Joint Operation Planning and Execution System. As one of the many
    component systems that resides on GCCS, the Joint Operation Planning and
    Execution System (JOPES) helps senior-level decision makers and their staffs to
    plan and conduct joint military operations. War planners use JOPES to identify
    types of forces and logistics support required, establish the sequence for moving
    forces, and manage the deployment process to sustain an operation plan. JOPES
    has supported the joint planning and execution community for 13 years.

    JOPES 21. In 1998, the Defense Information Systems Agency (DISA), as the
    centralized program manager for GCCS, started development of JOPES 2000, a
    significant enhancement and product improvement of JOPES, using available
    Operation and Maintenance (O&M) funds. In March 2002, the Director for
    Operations (J-3), Joint Staff renamed the system JOPES 21. For this report, we
    use JOPES 21 to refer to the new system and JOPES Classic to refer to the
    original system.

    Congressional Concerns. House Appropriations Committee Report
    (H. Rept. 105-591) accompanying the DoD Appropriations Bill, 1999 (H.R. 4103)
    questions the adequacy of DoD oversight of its information technology systems.
    In reviewing the budgets of individual systems, the Committee identified
    instances where agencies and departments were using Operation and Maintenance
    funds for purposes inconsistent with that appropriation. The Committee Report
    stated that DoD Regulation 7000.14-R, “Financial Management Regulation,”
    (FMR) provided clear guidance that the cost of new equipment or systems, the
    replacement of equipment or systems, and even software changes designed to
    “improve system performance” are “Investments” and should be paid for with
    either Procurement or Research, Development, Test, and Evaluation (RDT&E)
    funds. In H. Rept. 106-244 accompanying the DoD Appropriations Bill, 2000
    (H.R. 2561), the Committee criticized DoD for not taking corrective actions in
    response to H. Rept. 105-591 and directed DoD to submit reprogrammings to the
    FY 2000 appropriations bill to bring DoD into compliance with the Committee’s
    direction.


Objectives
    This is one in a series of reports the Inspector General of the Department of
    Defense is issuing on the policies and procedures that govern GCCS. The overall
    objective for the series was to evaluate the joint functionality, system integration,


                                          1
and operation of GCCS. The specific objective for this segment of the audit was
to review additional data from the DISA Comptroller in response to a potential
Antideficiency Act violation. Our review of management controls at the Joint
Staff and DISA related to GCCS is in Report No. D-2003-078, “Global Command
and Control System Joint Operation Planning and Execution System,” April 15,
2003. See Appendix A for a discussion of the audit scope and methodology. See
Appendix B for prior coverage related to the audit objectives.




                                   2
               Potential Funding Violation
               DISA inappropriately spent about $28.4 million of O&M funds, rather
               than RDT&E funds, to develop JOPES 211 from FY 1998 through
               FY 2002. DISA used O&M funds because DISA management classified
               JOPES 21 as an improvement to an existing information technology
               system, thereby qualifying for the use of O&M funds, rather than the
               development of a new system requiring the use of RDT&E funds. As a
               result, an Antideficiency Act violation may have occurred.


DoD Financial Management Regulation
    The FMR provides guidance on the type of appropriated funds that should be used
    for development of an information technology system, for funding commercial
    off-the-shelf (COTS) systems, and for product improvement of items in the
    operational inventory. The FMR also cites actions required in cases of
    Antideficiency Act violations.

    Information Technology System Investments. FMR volume 2A, “Budget
    Formulation and Presentation,” June 1998, chapter 1, section 010201, “Criteria
    for Determining Expense and Investment Costs,” defines expense and investment
    costs. The criteria for cost definitions consider the innate qualities of the item,
    such as durability in the case of an investment cost or consumability in the case of
    an operating cost, and the conditional circumstances under which an item is used
    or the way it is managed. All costs are classified as either an expense or an
    investment. In all cases where the definitions appear to conflict, conditional
    circumstances will prevail. Costs budgeted in the O&M appropriation are
    considered expenses. Costs budgeted in the RDT&E appropriation are considered
    both expenses and investments. The FMR defines expense and investment costs
    as follows:
                   1. Expenses are the costs incurred to operate and maintain the
                   organization, such as personal services, supplies, and utilities.

                   2. Investments are the costs that result in the acquisition of, or an
                   addition to, end items. These costs benefit future periods and generally
                   are of a long-term character such as real property and personal
                   property.

    The FMR also states that the following conditional case takes precedence over the
    criteria for expense and investment costs:
                   [T]echnology refreshment that significantly changes the performance
                   envelope of the end item is considered a modification and, therefore, an

    1
        In comments on Report No. D-2003-078, DISA stated that JOPES 21 expenditures totaled
        $15.2 million. We were unable to verify the means DISA used to segregate JOPES Classic and
        JOPES 21 costs.



                                                 3
               investment. . . . This definition applies equally to technology insertion
               by commercial firms as part of contractor logistics support, prime
               vendor, and similar arrangements and to technology insertion that is
               performed internally by the Department. 2

FMR section 010212 C.7. states that existing off-the-shelf equipment may be
procured with Procurement funds, and items that require engineering design,
integration, test, or evaluation effort shall be procured with RDT&E funds in
sufficient numbers to support such effort.

COTS System Funding. The FMR provides that when COTS items are modified
to satisfy users’ requirements, the costs of acquiring, modifying, and testing the
commercial items should be budgeted in the RDT&E appropriation. Further, the
RDT&E appropriation should be used in the following cases.

           •   If COTS systems require engineering design, integration, test, and
               evaluation to achieve the objective performance.3

           •   If an end item requires design and development in order to accept the
               COTS system. In such cases, the entire effort is not COTS, and
               funding for that effort should be budgeted in the RDT&E
               appropriation.

           •   If commercially available items must be modified to satisfy user
               requirements. Such items are classified as “modified COTS” articles;
               modification of the first article, and first article testing, should be
               budgeted in the RDT&E appropriation.

Product Improvement Funding. The FMR provides that when major end items
or major components of major end items currently in production or in the
operational inventory are improved, the costs should be funded in the following
manner.

           •   Engineering services applied to an item currently in production to
               extend its useful military life within the current performance envelope
               should be funded by Procurement appropriations. However, when
               developmental testing or operational test and evaluation by an
               independent operational test agency is required, RDT&E should be
               budgeted to finance the improvement.

           •   Engineering services applied to an out-of-production, but still
               operational item to extend its useful military life within the current
               performance envelope should be financed by O&M appropriations.
               However, when developmental testing or operational test and


2
    The technology insertion policy in FMR section 010201 D.3. was added in the June 2000 edition
    of the regulation.
3
    The COTS policy in FMR section 010211 B.1. was added in the June 2000 edition of the
    regulation.



                                              4
               evaluation by an independent operational test agency is required,
               RDT&E should be budgeted to finance the improvement.

    Action Required for Suspected Antideficiency Act Violations. An
    Antideficiency Act violation, as codified in section 1341, title 31, United States
    Code, is the obligation, expenditure, or authorization of funds in excess of the
    amount available in an appropriation or fund by an officer or U.S. employee.
    FMR volume 14, “Administrative Control of Funds and Antideficiency Act
    Violations,” October 2002, chapter 2, “Violations of the Antideficiency Act,”
    states that a potential violation “shall be reported and investigated when charges
    to a currently available appropriation would have resulted in a violation of the
    Antideficiency Act had they been charged to the applicable expired account.”

    FMR volume 14, chapter 4, “Beginning a Formal Investigation,” section 0401,
    states that a formal investigation is required whenever a preliminary review
    determines there may be a violation of the Antideficiency Act. Volume 14 also
    states, in section 0402, that an appointed investigating officer shall perform a
    formal investigation. Volume 14, chapter 4, October 2002, section 0402,
    provides the procedures for selecting an investigating officer, including the role of
    the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer in assisting in finding a qualified investigator.

    FMR volume 14, chapter 10.D., “Corrective Action,” describes procedural
    corrections to correct the adverse funding condition. The procedural corrections
    may include training or changes in procedures to preclude similar violations.


DISA Operation and Maintenance Funding
    DISA spent $28.4 million to develop JOPES 21. DISA designed, integrated,
    tested, evaluated, and modified JOPES 21 COTS products with O&M funds. The
    appropriate source of funding for all or part of the $28.4 million may have been
    RDT&E funds. The $28.4 million in purchases made with O&M funds to
    develop JOPES 21 were used to significantly modify the performance envelope of
    JOPES Classic. In January 2000, the U.S. Central Command performed an
    independent test of the JOPES 21 development effort. In February 2000, the Joint
    Interoperability Test Command provided an independent verification and
    validation of the U.S. Central Command’s January 2000 test. In August 2000, the
    Joint Interoperability Test Command conducted an operational evaluation of
    JOPES 21. The FMR addresses DoD policies for funding investments that
    significantly modify the performance envelope and product improvement efforts
    for end items in development or in the operational inventory. Such investments
    and efforts should not use O&M funds but rather RDT&E funds. However, some
    purchases may have legitimately used O&M funds. DISA records we reviewed
    were not complete enough to make an adequate assessment.




                                          5
DISA Management Criteria
    The Joint Staff tasked DISA to look at technical solutions to improve JOPES
    Classic. The resulting study suggested that DISA would need to redesign the
    JOPES database structure, set up a testing network to support the redesigned
    JOPES database hosted on the new system architecture, conduct a demonstration,
    and field the capability. The Joint Staff recommended the use of COTS
    technology to replace the JOPES Classic government off-the-shelf products.

    DISA classified JOPES 21 as an improvement to an existing information
    technology system, rather than as a new system. Therefore, DISA funded the
    COTS systems for JOPES 21 with the O&M appropriation. DISA claimed an
    exception to the RDT&E rule for funding COTS information technology systems,
    citing FMR volume 2A, chapter 1, section 010201,4 which states:
                   Continuous technology refreshment is the intentional, incremental
                   insertion of newer technology to improve reliability, improve
                   maintainability, reduce cost, and/or add minor performance
                   enhancement, typically in conjunction with depot or field level
                   maintenance. The insertion of such technology into end items as part of
                   maintenance is funded by the operation and maintenance
                   appropriations.

    However, section 010201 D.3. states that technology refreshment that
    significantly changes the performance envelope of the end item is considered a
    modification and, therefore, an investment. In addition, the House Committee
    Report (H. Rept. 106-244) accompanying H.R. 2561, the DoD Appropriations
    Bill, 2000, addresses the Appropriations Committee’s concerns on the use of
    O&M funds versus RDT&E funds for information technology systems:
                   In last year’s report this Committee highlighted its concern that the
                   Department’s use of operation and maintenance funds to develop and
                   modernize its information technology systems was inconsistent with
                   the Financial Management Regulations and directed the Department to
                   correct this in its fiscal year 2000 budget submissions. The Department
                   failed to do so. The Committee is concerned the continuation of this
                   practice undermines the most basic distinction between appropriations
                   and puts the Department in jeopardy of committing anti-deficiency
                   violations. Consistent with last year’s report the Committee directs the
                   Department to submit prior approval reprogrammings as necessary to
                   bring its programs into compliance. The Committee, however, remains
                   prepared to work with the Department to realign funding between
                   appropriation accounts prior to the completion of the fiscal year 2000
                   defense appropriations bill in order to bring the Department into
                   compliance with the least disruption.

    4
        DISA claimed the exception rule in section 010201 for FY 2000 funding. For FY 1999,
        according to Inspector General of the Department of Defense Report No. D-2000-063, DISA
        claimed the exception rule in section 010212 C.10.b(1)(a) of the 1998 edition of the FMR. That
        related exception rule was not included in the June 2000 FMR.



                                                 6
     The JOPES 21 development effort was intended to improve the performance
     envelope of JOPES Classic. The formal requirement for JOPES 21 stated in the
     “Global Command and Control System Requirements Identification Document
     Phase III,” December 22, 1998, and the “Global Command and Control System
     (GCCS) Transitional Evolutionary Phased Implementation Plan (EPIP) for
     Phase III,” September 29, 2000, (the Plan) was to achieve significant
     improvement in performance. As stated in the Plan, JOPES 21 is a reengineered
     version of JOPES Classic and “will provide substantial improvement in
     performance, reliability, database synchronization, and integrity.” The Plan states
     that JOPES 21 will upgrade the JOPES Classic database servers as well as many
     of the JOPES applications. The FMR defines the cost for development of new
     equipment or systems, the replacement of equipment or systems, and even
     software changes designed to improve system performance as investments that
     should be funded through the RDT&E appropriation.


Potential Antideficiency Act Violation
     DISA contended that funding for COTS for JOPES 21 was continuous,
     incremental technology refreshment and, therefore, should be funded through the
     O&M appropriation. DISA classified the cost of acquiring COTS systems as an
     expense. However, the FMR states that when the insertion of such technology
     significantly changes the product, as is the case with JOPES 21, then the
     technology is considered an investment. Investments of that type require the use
     of RDT&E funds. Also, the software engineering and support provided were
     RDT&E tasks subject to RDT&E funding; therefore, an Antideficiency Act
     violation may have occurred.


Management Actions
     The Office of the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) completed a review of the GCCS program in
     June 2001 and determined that the program lacked the proper appropriation funds
     to conduct systems engineering and integration activities. The Assistant
     Secretary directed DISA to establish an RDT&E funding line in the GCCS
     program element for all future fiscal years. According to DISA management
     officials, starting with the FY 2003 budget, the GCCS program has RDT&E funds
     and is applying those funds to JOPES 21 contract actions. We did not verify
     whether DISA was spending FY 2003 RDT&E funds on JOPES 21.

     The Under Secretary of Defense (Comptroller)/Chief Financial Officer and the
     Associate Deputy General Counsel (Appropriations and Authorization Matters),
     Office of the Deputy General Counsel (Fiscal) reviewed a discussion draft
     of this report and concluded that an Antideficiency Act violation had not
     occurred. In a memorandum, “Discussion Draft of a Proposed Report (Project
     No. D2001LG-0101.03),” February 20, 2003, to the Inspector General of the
     Department of Defense, the Under Secretary of Defense (Comptroller)/Chief
     Financial Officer stated that after carefully reviewing the facts presented and


                                          7
    obtaining budget justification material from DISA, the Comptroller and the
    Associate Deputy General Counsel did not believe that there was an
    Antideficiency Act violation in this case.


Recommendation, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer investigate whether the use of approximately $28.4 million
    of Operation and Maintenance funds was an Antideficiency Act violation in
    accordance with chapter 10 of DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 14, August 1995.

    Under Secretary of Defense (Comptroller)/Chief Financial Officer
    Comments. The Under Secretary of Defense (Comptroller)/Chief Financial
    Officer stated that his office reviewed the facts presented and obtained copies of
    budget justification material. The Under Secretary of Defense
    (Comptroller)/Chief Financial Officer determined that there was no violation of
    the Antideficiency Act.

    Audit Response. The Under Secretary of Defense (Comptroller)/Chief Financial
    Officer review constituted a preliminary investigation; his actions were
    responsive to the intent of the recommendation.




                                         8
Appendix A. Scope and Methodology
   We reviewed applicable guidance and regulations that the Under Secretary of
   Defense (Comptroller)/Chief Financial Officer and DISA used to monitor funding
   issues; the Office of the Under Secretary of Defense (Comptroller)/Chief
   Financial Officer memorandum “Clarification of Policy – Budgeting for
   Information Technology and Automated Information Systems,” October 26, 1999;
   the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
   Officer memorandum “FY 2001 Budget Justification Book Material for the
   Congress,” January 31, 2000; DISA Budget Justification Book (OP-5)
   submissions for FYs 2000 through 2003; and “FY 2002-2007 POM [Program
   Objective Memorandum] Preparation Instructions, Office of the Secretary of
   Defense,” February 24, 2000.

   We also reviewed the “JOPES Strategic Plan,” April 2000, and the FMR editions
   from 1998 through 2002.

   We reviewed implementing guidance developed by DISA. We reviewed the
   “Global Command and Control System (GCCS) Transitional Evolutionary Phased
   Implementation Plan (EPIP) for Phase III,” September 29, 2000: the “Global
   Command and Control System (GCCS) Evolutionary Phase Implementation Plan
   (EPIP) for Phase IV, Draft (GCCS Versions 3.4.0 through 4.2.0),” June 29, 2001;
   The “Global Command and Control System (GCCS) Evolutionary Acquisition
   Strategy, Revision 2.2,” July 14, 2000; the “Global Command and Control
   System (GCCS) Requirements Identification Document (RID) for Phase III,”
   December 22, 1998; the “Global Command and Control System (GCCS) Phase
   IV Requirements Identification Document (RID),” October 6, 2000; and Defense
   Acquisition Executive Summary reports, December 1999 through March 2002.

   We analyzed JOPES Classic and JOPES 21 contracts DCA100-97-D-0043
   (covering April 1998 through May 2002), DCA100-97-D-0026 (covering
   February 1998 through April 2002), and GS-35F-4810G (covering April 2002
   through September 2002).

   To identify dollar amounts, redesign activities, and funding policies, we:

          •   met with DoD officials at the DISA Comptroller’s Office, the Office
              of the Under Secretary of Defense (Comptroller)/Chief Financial
              Officer, and the Office of the Assistant Secretary of Defense
              (Command, Control, Communications and Intelligence); and

          •   reviewed contracts DCA100-97-D-0043, DCA100-97-D-0026, and
              GS-35F-4810G to identify the costs of developing JOPES 21 and the
              amounts spent for the maintenance of JOPES Classic since 1998.

   We performed this audit from December 2002 through February 2003 in
   accordance with generally accepted government auditing standards.




                                        9
Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the DoD Financial Management high-risk area.




                                   10
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD), the Army Audit Agency, and the Air Force Audit Agency have issued
    eight reports discussing GCCS. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports. Unrestricted Army Audit Agency reports
    can be accessed at https://www.aaa.army.mil/reports.htm from certain domains.
    Unrestricted Air Force Audit Agency reports can be accessed at
    https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml from certain domains.


IG DoD
    IG DoD Report No. D-2003-078, “Global Command and Control System Joint
    Operation Planning and Execution System,” April 15, 2003

    IG DoD Report No. D-2002-133, “Global Command and Control System
    Readiness Assessment System Output Tool,” July 24, 2002

    IG DoD Report No. D-2002-084, “Guidance for the Global Command and
    Control System Common Operational Picture,” May 1, 2002

    IG DoD Report No. D-2001-168, “Acquisition Management of the Global
    Transportation Network,” August 2, 2001

    IG DoD Report No. D-2001-157, “Global Command and Control System –
    Meteorological and Oceanographic Application,” July 11, 2001

    IG DoD Report No. D-2000-063, “Information Technology Funding in the
    Department of Defense,” December 17, 1999


Army
    Army Audit Agency Report No. AA 99-87, “Global Command and Control
    System-Army Program,” January 22, 1999


Air Force
    Air Force Audit Agency Report No. 00058001, “Maintenance of Time-Phased
    Force and Deployment Data Files,” November 23, 2000




                                       11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff
   Directorate for Operations (J-3)
   Directorate for Logistics (J-4)
   Directorate for Command, Control, Communications, and Computer Systems (J-6)
   Directorate for Operational Plans and Interoperability (J-7)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency
   Comptroller/Chief Financial Executive, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          12
Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        13
Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                      15
16
17
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Evelyn R. Klemstine
George Cherry
Timothy A. Cole
Karen A. Ulatowski
Troy R. Zigler
Robert E. Martens
Elizabeth N. Shifflett
